       FEDERAL ELECTION COMMISSION 


       OFFICE OF INSPECTOR GENERAL 





               FINAL REPORT 


AUDIT OF THE FEDERAL ELECTION COMMISSION’S 

        OFFICE OF HUMAN RESOURCES 





                    July 2013 

             ASSIGNMENT No. OIG-12-05 

Audit of the FEC’s Office of Human Resources                                      OIG-12-05


                                           TABLE OF CONTENTS

        DESCRIPTION                                                               PAGE

        Executive Summary              
                                           3

        Objectives, Scope, and Methodology         
                               6

        Background                                                                 9          


        Customer Service Survey Results                                            12 


        Findings and Recommendations                                               14             


          I.    Performance Management                                             14         

                   A. Ineffective Leadership                                       14             

                   B. Inadequate Organizational Structure                          17             

                   C. Non-compliance with FEC’s Performance Plan and 

                   Appraisal Policy                                                18         


         II.    Technology & Automation                                            22         

                   A. Ineffective Use of the Federal Human Resource (FHR) 

                   Navigator System                                                22         

                   B. Office of Human Resources is not Properly Utilizing and 

                   Maintaining their FECNet Page                                   24             

                   C. Electronic Fingerprint Scheduling Process not 

                    Fully Implemented                                              27             


        III.    Office Operations                                                  28

                    A. HR On Demand Process is Ineffective                         28 

                    B. Non-compliance with FEC’s Recruitment/Selection Process     32 

                    C. Outdated Global Personnel Related Policies/Directives       37 


        Conclusion           
                                                     39

        Summary of Findings and Recommendations Table           
                  41

        Appendix A – Management Responses to the OHR Report



                                                                                                      2
Audit of the FEC’s Office of Human Resources                                               OIG-12-05


                                         EXECUTIVE SUMMARY 


        The Office of Inspector General (OIG) conducted the Audit of the Federal Election
        Commission’s Office of Human Resources (OHR) based on the numerous findings
        identified in the 2009 Office of Personnel Management’s (OPM) Human Capital
        Management Evaluation Report, concerns about the effectiveness of the OHR raised by
        FEC senior leaders during the OIG’s 2012 annual audit planning process, and the
        numerous unsatisfactory responses included in the 2011 OHR’s annual customer service
        survey.

        The OHR is responsible (either directly or indirectly) for all FEC personnel related
        activities including hiring, human capital management, pay changes, promotions,
        benefits, employee performance management, among other activities. The numerous
        responsibilities of the OHR results in the office being one of the most important functions
        of the FEC, an office relied upon by every employee of the agency and prospective
        employees of the FEC. As a result of the significant responsibilities of the OHR, it is
        imperative that customer service is a main priority for OHR.

        The overall objective of this audit was to assess the effectiveness and efficiency of
        customer service in OHR. Sub-objectives of the audit were to identify if: (a) OHR’s
        processes directly related to customer service are operating effectively; (b) OHR has
        adequate policies that are up-to-date to govern HR- related functions; (c) the office is
        effectively utilizing technology and other HR automation tools, and identify areas to
        enhance efficienct and effective use of technology; and (d) additional policies or policy
        improvements/updates are needed.

        Based on this audit, the OIG concludes the OHR has significant leadership and
        operational weaknesses that are impacting the office’s ability to provide effective
        customer service and fulfill the day-to-day responsibilities of the office. Specifically, the
        agency hired a new Director of OHR in April 2010, who lacked the necessary leadership
        experience to address the many challenges facing the OHR at that time and going
        forward. To compound this issue, the Director of OHR’s supervisor at the time, failed to
        promptly provide the newly appointed Director of OHR the training necessary to address
        these leadership gaps. The OIG acknowledges the Director of OHR has put forth
        significant efforts to improve the OHR. However, most of these initiatives have not been
        effective at improving customer service and the operations of the OHR. The audit also
        found that HR- related policies are either out-dated or do not exist.




                                                                                                        3
Audit of the FEC’s Office of Human Resources                                                             OIG-12-05


        To help determine if initiatives implemented in the past couple of years have been
        effective in improving OHR customer service, the OIG conducted an independent OHR
        customer service survey in September 2012. The OIG’s survey results identified 58% of
        the survey respondents believe that OHR’s customer service has not improved or has
        stayed the same over the past 12 months. Specifically, common complaints among
        employees who responded to the OIG survey related to the lack of timely OHR responses
        to employee requests and the inaccuracy of data and information provided to employees;
        more details on the results of OIG’s OHR customer service survey is included on page
        12.

        Prior to this audit, management and the Director of OHR attempted to address some
        deficiencies in program management, such as implementing the FEC’s Human Capital
        Plan in December 2011, conducting a workforce gap analysis, restructuring the office,
        and implementing HR On Demand (an electronic employee request and tracking
        process). However, the majority of these initiatives had been poorly implemented and
        not effective. For example, the FEC hired a contractor to conduct a comprehensive
        workforce gap analysis1 (gap analysis) in fiscal year (FY) 2011 specifically for the FEC’s
        OHR at a cost of $28,984. Based on OIG’s assessment of the status of corrective actions,
        we determined that as of February 2013, OHR has only fully addressed two (2) of the
        nine (9) findings from this analysis.

        OIG identified another major factor that is hindering OHR’s ability to provide acceptable
        customer service is the poor planning and implementation of available tools and
        technology to streamline processes and improve operational efficiencies. Specifically,
        OIG is concerned with how long it has taken to implement the Federal Human Resources
        Navigator (FHR) System which is designed to assist HR offices with automating HR
        functions and processes. Six (6) of the seven (7) total FHR modules were purchased in
        September 2010 and only one (1) has been fully implemented as of February 2013 (17
        months after initial purchase). In February 2013, when the OIG inquired with OHR on
        the status of FHR implementation, OHR stated that they were pilot testing one of the
        original six modules purchased in September 2010 along with an additional module
        related to recruiting/hiring which was purchased in October 2012.

        In addition to the automated FHR system, the OHR also developed an in-house electronic
        customer service tracking system called “HR On Demand.”


        1
          OHR procured contract services in June 2011from Suntiva, LLC to conduct an analysis of their office to
        identify any performance (knowledge, skills & abilities) gaps for their entire office staff, to include the
        supervisors and the Director of Human Resources.


                                                                                                                      4
Audit of the FEC’s Office of Human Resources                                            OIG-12-05




        Due to poor implementation, including inconsistent use of the system by OHR staff, and
        a lack of knowledge on how the system worked by OHR staff, including OHR
        management, the OHR eventually acknowledged the system was not working as
        intended.

        Subsequent to the completion of the OIG’s audit fieldwork, management and OHR have
        already begun to implement corrective actions they believe will address some of the
        recommendations included in this report. For example, corrective actions are underway
        to implement a new automated customer service tracking system called “Remedy,” pilot
        testing of FHR modules has started, and work on improved policies and procedures is in
        process. In addition, management has brought on a Senior Executive Service (SES)
        candidate from another agency temporarily to help the Director of OHR improve the
        office. This person does not have an HR background but does have experience with
        process re-engineering and managing a large office.

        However, the OIG still concludes that the extent of the problems which currently exist in
        the OHR require significant leadership improvement and operational change. The OIG
        believes that failure by the agency to promptly implement the recommendations included
        in this report will result in continued, long-term challenges and weaknesses that will
        increasingly have an adverse impact on agency employee morale.

        The OIG identified 9 findings in three areas of the Office of Human Resources: 1)
        Performance Management; 2) Technology & Automation; and 3) Office Operations. The
        detailed findings along with 26 recommendations for improvement were provided to
        management for discussion prior to the release of this report and are included in the
        Findings and Recommendations section beginning on page 14. Management generally
        agreed with 25 of 26 recommendations, and disagreed with one, with the intent to
        implement an alternative corrective action.

        Management disagreed with recommendation three (3), on page 16, which is for FEC to
        “pursue a detail or other type of agreement with another federal agency to bring on board,
        on a temporary basis, a seasoned HR professional…” Instead, the FEC has brought on an
        SES candidate from another agency temporarily who has experience with process re-
        engineering and a leadership background.




                                                                                                     5
Audit of the FEC’s Office of Human Resources 	                                           OIG-12-05


                               OBJECTIVES, SCOPE & METHODOLOGY

        Objectives

        The Office of Inspector General’s (OIG) overall objective for conducting the Audit of the
        Office of Human Resources was to determine the efficiency and effectiveness of customer
        service in the Office of Human Resources (OHR). This would include sub-objectives to
        identify:
            	 if OHR’s processes directly related to customer service are operating effectively;

            	 whether OHR has adequate policies that are up-to-date to govern HR related
               functions;

            	 if the office is effectively utilizing technology and other HR automation tools, and
               identify areas to improve efficiency and effectiveness; and

            	 if additional policies or policy improvements/updates are needed.

        Scope

        To avoid duplication of work due to a planned review of the FEC’s OHR by the Office of
        Personnel Management (OPM) in the summer of 2013, the OIG structured the scope of
        this audit to focus more on areas related to OHR’s day-to-day operations and the structure
        of the office as a whole. The audit considered relevant information related to OHR
        beginning in fiscal year (FY) 2009 to present. Detailed audit testing was based on OHR
        activity during FYs 2011 and 2012.

        Methodology

        The OIG conducted this performance audit in accordance with generally accepted
        government auditing standards. Those standards require that we plan and perform the
        audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
        findings and conclusions based on our audit objectives. We believe that the evidence
        obtained provides a reasonable basis for our findings and conclusions based on our audit
        objectives. In order to meet our audit objectives, we used interviews, inquiries,
        observations, and judgmental sampling for items selected for detailed testing. Audit
        work performed includes the following:




                                                                                                      6
Audit of the FEC’s Office of Human Resources 	                                              OIG-12-05


        Overall Customer Service

                	 Reviewed the results of OHR’s annual customer service survey from FY
                   2011.

                	 Developed an OIG survey related to OHR’s customer service and provided
                   the survey to all FEC staff. Evaluated the results of the survey to identify if
                   improvements have been achieved. Survey results were used to determine
                   which HR areas to focus detail audit testing.

        Policies and Procedures

                	 Assessed the status (i.e. draft, outdated etc.) of existing policies and standard
                   operating procedures (SOP) of the HR office.

                	 Reviewed the policies directly related to the audit areas under review and
                   performed walkthroughs of the related functions.

        Performance Management

                	 Reviewed the results and findings of HR’s Workforce Gap Analysis to assess
                   HR’s progress in addressing any identified gaps or needed improvements.

                	 Reviewed HR’s FY 2011 performance appraisal process for the HR staff to
                   determine compliance with the FEC’s performance management policy which
                   included review of each staff member’s annual performance appraisal for
                   2011 - 2012.

                	 Conducted interviews with HR staff regarding their specific roles,
                   responsibilities, and their personal perspective of the effectiveness of the HR
                   office. Results of interviews were utilized in our overall assessment of
                   customer service and the effectiveness of HR’s corrective actions to address
                   the workforce gap analysis.

        Automation and Technology

                	 Assessed OHR’s use of available technology to include the Federal Human
                   Resource (FHR) Navigator (“FHR” is an automated tool to assist federal
                   agencies with HR functions). Also, verified status of FHR modules
                   implemented during audit testing.

                	 Assessed how OHR is utilizing their FECNet intranet page. Also, reviewed
                   the OHR’s FECNet intranet page to determine if timely and current
                   information is included.


                                                                                                        7
Audit of the FEC’s Office of Human Resources 	                                           OIG-12-05


        OHR Operations

                	 Reviewed and assessed the HR On Demand process (internal email system
                   and a database created to receive and track employee inquiries) to determine
                   effectiveness. OIG obtained a report of all inquiries received from January
                   2012 to November 2012 and judgmentally selected 13 inquiries from
                   employees that appeared to have sent multiple requests related to the same
                   subject. OIG obtained the related emails and other supporting documentation
                   to identify if HR is resolving issues and responding to customer requests in a
                   reasonable amount of time.

                	 To determine compliance with FEC’s hiring and recruitment policies and
                   procedures, OIG judgmentally selected 10 vacancy announcements (to ensure
                   a cross section of different division hires) and reviewed recruitment files and
                   other supporting documentation maintained by the OHR and the Office of
                   General Counsel.




                                                                                                     8
Audit of the FEC’s Office of Human Resources                                                              OIG-12-05


                                                 BACKGROUND 


        During the first two quarters of FY 2010, OHR consisted of nine permanent full-time
        employees (FTE) that included, an HR Director, a Supervisory HR Specialist, five HR
        Specialists, and two HR Assistants. In February 2010, the Office of Human Resources
        (OHR) experienced approximately a 50% turnover rate in staff, including the Director of
        Human Resources. In April 2010, the FEC selected a new Director of Human Resources.
        Since fiscal year (FY) 2010, several contractors and new employees have been hired to
        fill the vacancies in OHR due to the large turnover.

        In September 2010, the OHR purchased the Federal Human Resource (FHR) Navigator
        system2 to assist with automating HR functions and processes. To date, the FEC has
        spent $33,030 on the FHR system for all modules. However, after procuring the system
        in 2010, OHR discovered that the FHR system could not be integrated with FEC’s
        current payroll system. Although all of the modules were not impacted by the lack of
        integration, only one (1) FHR module purchased was implemented and the remaining
        five (5) modules were not used.

        In June 2011, OHR contracted with Suntiva, LLC to perform a workforce competency
        gap analysis for OHR at a cost of $28,984. The contract not only provided OHR with an
        assessment of their office, but also a leadership coaching program specifically for the
        Director of HR. The analysis included team building sessions, interviews, and
        competency skill assessments for the OHR staff. Self assessments were completed by the
        entire HR office for 20 HR technical competency areas. In turn, the Director of HR also
        provided a management assessment for all HR staff, and a supervisory assessment by the
        Deputy Staff Director for Management Administration was completed for the HR
        Director. The self assessment ratings were compared to the management ratings to
        identify any existing competency gaps. The contractors provided OHR with a detailed
        report of issues identified from their analysis along with recommendations for
        improvement. The contractors noted skill gaps from the assessments for the HR staff as
        well as the HR Director. Particularly, there were large competency gaps for some staff in
        their designated area(s) of work, and a skills gap in 1/33 of the competency areas for the
        Director of HR.



        2
          A software suite that provides an integrated enterprise solution for multiple human resource functions, 

        including retirement benefit calculation and processing, personnel forms and case management, on-

        boarding management, personnel action processing, and financial planning.

        3
          The 1/3 skills gap calculation was determined and documented by Suntiva, LLC in their final analysis 

        documentation for the workforce gap analysis. 



                                                                                                                      9
Audit of the FEC’s Office of Human Resources                                                       OIG-12-05


        According to the Code of Federal Regulations4, heads of agencies or their designees(s)
        are required to:
             Identify workforce competency gaps;
             Include strategies for closing competency gaps; and
             Conduct periodic reviews of individual employee's training needs as related to
                program objectives.

        To assist with the Suntiva noted deficiencies and competency gaps, OHR implemented
        several corrective actions. In October 2011, OHR piloted a new organizational structure
        that divided their office into two teams, and reclassified two HR Specialists to
        supervisory positions to manage the two teams. The reorganization of the HR office
        became official in April 2012, see diagram below.


                                               Director of
                                             Human Resources


            Supervisory HR Specialist:                               Supervisory HR Specialist:
            HR Staffing, Systems                                     Benefits, Compensation, and
            Accountability Operations                                Worklife Operations Team
            (Team A)                                                 (Team B)



            HR Specialist         HR Assistant                     HR Specialist          HR Assistant
            (2) Staff             (1) Staff                        (1) Staff              (1) Staff


        In addition to the change of office structure, two OHR employees resigned: a
        Supervisory HR Specialist (Team A), and a HR Specialist position (Team A). The HR
        Specialist separated from the agency in May 2012 and the Supervisory HR Specialist in
        November 2012. The FEC immediately placed a supervisor from another FEC office on
        a 120 day detail assignment to OHR to be the Acting Supervisory HR Specialist for Team
        A (note this person assumed the position on a permanent basis in May 2013, before the
        issuance of this report).

        During the same time of the restructuring (October 2011), OHR launched HR On
        Demand to improve OHR’s response time to inquiries from their customers.

        4
            5 C.F.R. § 410.201 (2011); Executive Order 11348, 3 C.F.R. 639 (1966-1970).



                                                                                                               10
Audit of the FEC’s Office of Human Resources                                                          OIG-12-05


        The HR On Demand system consists of an HR On Demand internal email address and a
        Microsoft Access database created to provide a centralized process to receive and track
        employee inquiries.

        After the start of the audit, the OIG learned that in May 2012, OHR evaluated the
        feasibility of procuring an HR Line of Business (LOB)5. The cost benefit analysis6
        performed by the Deputy Staff Director for Management and Administration determined
        that the purchase of an HRLOB would not be a feasible option at that time based on the
        initial cost estimate provided by the vendor. However, after further cost analysis from
        the vendor based on clarifying information provided by the FEC, the initial estimated cost
        for the LOB was significantly reduced. According to the Deputy Staff Director for
        Management and Administration, at the time the revised estimate was provided to FEC,
        budgetary resources for the fiscal year had already been re-allocated and the LOB was
        not pursued. Due to the inability to procure the HRLOB in FY 2012, OHR began to
        implement FHR modules purchased in September 2010 that were not being used. From
        September 2010 to February 2013, the FEC spent $13,280 on the FHR modules that were
        not being used. As of February 2013, one module initially purchased has been placed in
        pilot mode, two have not been fully implemented, and OHR purchased the Recruitment
        module in October 2012, which is also in pilot testing.




        5
         HR Line of Business: Transitions an agency’s entire HR office or specific HR function(s) to another
        government agency to help automate and streamline the federal government support functions while freeing
        agency resources to focus on their core business.
        6
         OIG reviewed the LOB cost benefit analysis for informational purposes only. We did not verify the
        accuracy of the data provided.


                                                                                                                   11
Audit of the FEC’s Office of Human Resources                                                  OIG-12-05


                            CUSTOMER SERVICE SURVEY RESULTS


        OHR conducted a customer service survey in 2011 to receive feedback from FEC staff.
        The results from OHR’s 2011 survey were provided to the OIG for review for the audit.
        The OIG noted issues related to OHR’s timeliness in completing tasks, data accuracy,
        and responsiveness to customers. To assess OHR’s progress in addressing these issues,
        the OIG conducted an anonymous employee survey related to customer service in
        September 2012.

        Out of 344 FEC employees, the OIG received 116 responses to the survey, a response
        rate of 34%. Some key results of the survey are listed in the table below:

                           Office of Inspector General’s 2012 OHR Survey Results

          Survey Questions             Very       Somewhat      Neither        Somewhat           Very
                                      Satisfied    Satisfied    Satisfied      Dissatisfied    Dissatisfied
                                                                   nor
                                                               Dissatisfied
      How satisfied were you
      with the timeliness of
                                        21%          16%          10%             23%             30%
      response received from
      OHR?
      How satisfied were you
      with the accuracy of the          23%          21%          21%             13%             22%
      info received from OHR?

                                     Significantly    Slightly    Stayed the    Slightly      Significantly
                                      Improved       Improved       Same        Declined        Declined
      In the past 12 months,
      OHR customer service                 7%          23%           58%           9%              3%
      has

                                       Strongly      Somewhat      Neither      Somewhat        Strongly
                                        Agree          Agree      Agree nor      Disagree       Disagree
                                                                  Disagree
      Overall, the OHR staff is
      knowledgeable and                   17%          17%           22%           28%            16%
      helpful

        In addition to the survey questions, the OIG included comment boxes throughout the
        survey to give employees the opportunity to provide additional information and/or give
        more explanations for survey responses. The majority of the comments provided by
        employees focused on OHR’s inability to resolve employee issues and/or respond to


                                                                                                              12
Audit of the FEC’s Office of Human Resources 	                                            OIG-12-05


        inquiries in a timely manner. The OIG noted that these problems were very similar to the
        survey responses OHR received for their 2011 customer service survey. Some examples
        of responses received are listed below:

        	 “I have made several attempts to contact Human Resources via email regarding
           various issues over the past year, and despite my best efforts, sometimes months will
           go by without HR responding in any way. If they do respond, it is sometimes only to
           say they have received the request, but then months will pass, and they do not take
           any action on the request.”
        	 “I felt like it took too many tries to get the info I needed from them, had to keep doing
           follow up.”
        	 “Very slow to respond and once response was received, e-mails were incomplete and
           did not fully inform me of the status or next steps. I had to continue to ask question,
           follow-up and even physically visit the office.”
        	 “They appear to be overworked and slow to respond. When they do respond, they can
           be very helpful.”
         “Some staff members are extremely helpful, knowledgeable and responsive.”
         “The HR office may be in need of Leadership. I think the entire staff is very helpful
           and works hard but its like they are lacking leadership that will help them have one of
           the best HR shops in government.”

        At the end of the survey, OIG gave employees the option to request a meeting with OIG
        to further discuss the survey. As a result, OIG met with five (5) employees to discuss
        OHR customer service, and the common issues communicated to the OIG related to (1)
        OHR communicating incorrect information to internal candidates during the hiring
        process; and (2) challenges with the on-boarding process for contractors. As a result of
        the information gathered from the survey, the hiring process and HR On Demand were
        selected for detailed testing.

        Overall, OIG concludes that despite efforts by OHR management during the past 18
        months (e.g. restructuring the office, implementing HR On Demand, completing the
        workforce gap analysis), customer service has not improved. See the findings and
        recommendations beginning on page 14 for details.




                                                                                                       13
Audit of the FEC’s Office of Human Resources                                            OIG-12-05


                                 FINDINGS AND RECOMMENDATIONS


        Based on the audit work performed covering OHR activity during fiscal years 2011 and
        2012, OIG has determined that there are many factors that are contributing to why
        customer service in the Office of Human Resources is unsatisfactory and is not
        improving. We have grouped our findings and recommendations into three main
        categories: (1) performance management; (2) technology and automation; and (3) office
        operations.

        I. Performance Management

        OIG reviewed the results of the OHR’s workforce competency gap analysis (gap
        analysis) completed in September 2011, along with corrective actions taken by OHR
        management to address the issues and findings identified, and assessed the progress made
        by OHR. Based on this review, OIG determined that most of the recommendations have
        not been fully implemented and/or actions taken by OHR have not been effective or
        sufficient to address the issues identified, which are described in A-C below. According
        to Office of Management and Budget (OMB) Circular A-123, Management’s
        Responsibility for Internal Control, Section V (Correcting Internal Control Deficiencies),
        “…Agency managers are responsible for taking timely and effective action to correct
        deficiencies… correcting deficiencies is an integral part of management accountability
        and must be considered a priority by the agency...”

        A. Ineffective Leadership

        OHR’s gap analysis report cited leadership as an area needing improvement. Specifically,
        the report stated the Director of HR needed to improve on: responsiveness, finding the
        right balance of oversight (i.e. not micromanaging); HR skills; strategic thinking; and
        trusting the team’s (HR staff) competence. The gap analysis also determined that OHR
        management is not effectively communicating expectations, setting priorities, or giving
        clear direction to the OHR staff, and that OHR employee morale is low.

        OIG notes that the Director of HR, who was hired in April 2010, had no previous
        supervisory/leadership experience. Also, the Director of HR operated in this supervisory
        role for 14 months before receiving any formal management/supervisory training from
        the Director’s supervisor at the time. To address these issues and rebuild the HR staff,
        the current Deputy Staff Director for Management and Administration held a team
        building session in May 2011 and an action plan was developed based on the results.
        The Director of HR was subsequently provided a management coach and instituted
        weekly staff meetings to better communicate with OHR staff.


                                                                                                     14
Audit of the FEC’s Office of Human Resources                                               OIG-12-05




        Based on the OIG’s audit testing and OIG interviews of OHR staff members (excluding
        the Director of HR) conducted in February 2013, we acknowledge that the Director of
        OHR has put forth significant efforts to improve OHR. However, most of the initiatives
        prior to this audit had not been effective at improving the office and motivating the staff.
        For example, four (4) of six (6) OHR employees interviewed by the OIG indicated that
        employee morale in the OHR continues to be low, 20 months after the gap analysis
        concluded this is an issue.

        The interviews also indicated that there is still a breakdown in communication between
        OHR management and their staff. For example, OHR Management stated that staff roles
        and responsibilities have been clearly communicated and are reiterated during staff
        meetings. However, staff roles and responsibilities are not clearly understood by some
        OHR staff members.

        Ineffective leadership and inadequate performance management are the major factors
        causing OHR customer service problems, and are also having an adverse effect on OHR
        employee morale. According to 5 C.F.R. § 430.102 (2011)(Performance Management),
        Agency management and its employees are responsible for ensuring effective processes
        and procedures are in place to accomplish agency mission and goals. As Human
        Resources is a critical element of any agency, it is imperative that OHR has strong
        leadership to improve. The likelihood of successfully implementing processes and
        controls required to significantly improve customer service levels and to achieve the
        goals of the office and mission of the agency will not be achieved without effective
        leadership.

        Recommendation #1
        OHR Management should reevaluate methods used to communicate expectations, to give
        feedback on staff performance, and to promote and address feedback from OHR staff in
        order to identify meaningful solutions to improve the organization. Then, OHR
        Management should make it a priority to implement corrective actions.

             Management Response:
             Office of Human Resource Management (Management) agrees with this
             recommendation.

             OIG Comment:
             The OIG looks forward to reviewing corrective actions planned by management to
             ensure that it fully addresses this recommendation.


                                                                                                       15
Audit of the FEC’s Office of Human Resources                                              OIG-12-05




        Recommendation #2
        OHR Management should make a clear distinction between the roles of the Director of
        OHR and the two supervisors who are responsible for supervising their subordinates on a
        daily basis. In addition, the roles and responsibilities for each OHR member should be
        clearly communicated.

             Management Response:
             Office of Human Resource Management (Management) agrees with this

             recommendation. 


             OIG Comment:
             The OIG looks forward to reviewing corrective actions planned by management to
             ensure that it fully addresses this recommendation.

        Recommendation #3
        The FEC should pursue a detail or other type of agreement with another federal agency to
        bring on board, no less than six months, a seasoned HR professional with significant
        experience in federal government HR operations, management and customer service, to
        provide clear direction, training, and focus to improve the HR office.

             Management Response:
             Office of Human Resource Management (Management) disagrees with this
             recommendation. However, alternate corrective action has been taken. In this
             sequestered budgetary environment, it is unlikely that a seasoned federal official
             trained specifically in HR matters will leave its agency to help the FEC, at no cost to
             the Commission. However, Management was successful in creating a win-win
             situation by bringing a SES candidate (at no cost to the Commission) to help with the
             issues as part of his development assignments. In addition, the Deputy Staff Director
             for Management and Administration assumed the managerial role of the OHR for the
             months of May and June and conducted team meetings on a weekly basis in order to
             strengthen team morale, staff collaboration, and improving customer service. The
             effectiveness of these recent initiatives will be re-evaluated in September 2013.

             OIG Comment:
             Based on OIG’s review of the SES candidate’s background, past experience, and
             objectives for this assignment, it appears that this person could be helpful in
             providing valuable guidance and help to OHR. We look forward to reviewing



                                                                                                       16
Audit of the FEC’s Office of Human Resources                                              OIG-12-05


             the results and recommendations from this assignment to determine if desired results
             have been achieved.

        B. Inadequate Organizational Structure

        Based on recommendations from the gap analysis, OHR management reorganized the
        office structure in April 2012 that divided their office into two teams, and promoted two
        of the HR Specialists to supervisory positions (Supervisory HR Specialist) to lead each
        team. Shortly after the new structure was implemented, one of the HR Specialists
        assigned to one of the teams resigned from the FEC. OHR did not receive approval to
        replace this position; rather, the tasks assigned for this position have been distributed to
        the remaining OHR staff members and a contractor. OIG notes that no permanent
        solution has been established for this position. Based on the results from OHR’s team
        building session and employee interviews conducted by OIG, OHR staff members feel
        “overextended” and some staff members believe that the new organizational structure has
        created uneven and/or improper distribution of work. In addition, no formal designated
        back-ups have been established for each task/position to ensure proper office coverage in
        the event an employee is out of the office, or resigns.

        Based on OMB guidance on internal controls (Circular A-123), “…Within the
        organizational structure, management must clearly: define areas of authority and
        responsibility; appropriately delegate the authority and responsibility throughout the
        agency;…establish a suitable hierarchy for reporting;…" Not properly managing OHR
        resources, such as allowing sufficient time to address employee inquiries, increases the
        risk that personnel related issues are not resolved timely, which will have a direct impact
        on OHR’s customer service. In addition, if management does not reevaluate the new
        structure in light of these unforeseen circumstances, the intended benefits of the
        reorganization may not be fully realized.

        Recommendation #4
        OHR Management should reassess the new OHR office structure to determine if there is
        a need to adjust the functions/tasks between the two teams, and/or individual team
        members, in order to better balance the workload amongst the teams/team members.

           Management Response:
           Office of Human Resource Management agrees with this recommendation. Although
           Management already started to reassess the existing structure, roles, and
           responsibilities it is important to note that the OHR restructuring provided a better
           structure than it had before by engaging staff in the OHR office design.


                                                                                                       17
Audit of the FEC’s Office of Human Resources                                              OIG-12-05


           The OHR engaged in several team building sessions where roles and responsibilities
           were repeatedly clarified and discussed. The sessions also focused on setting priorities
           and improving customer service.

           OIG Comment:
           The OIG agrees that the OHR reorganization was better than the existing structure at
           the time and that Management could not have foreseen that individuals in critical roles
           would leave the agency. In light of the current situation in OHR, we are pleased that
           Management has begun to reevaluate if adjustments are warranted. The OIG looks
           forward to reviewing corrective actions to ensure that it fully addresses this
           recommendation.

           C. Non-compliance with FEC’s Performance Plan and Appraisal Policy

           The gap analysis reported that staff roles were not clearly identified. 5 C.F.R. §
           430.206(b)(3) states, ” An appraisal program shall require that each employee be
           covered by an appropriate written or otherwise recorded, performance plan based on
           work assignments and responsibilities....” The OIG performed detailed testing of
           OHR’s performance appraisal process for the 2011-2012 performance period. Based
           on testing, we determined that OHR did not comply with their current policy and
           procedures for the annual performance appraisal process, as follows:

           Performance plans:
            A performance plan outlines the employee goals to be accomplished during the plan
           year and establishes agreed upon expectations that the employee will be evaluated
           against. According to the instructions for FEC Performance Plan and Appraisal
           Record for Non-Bargaining Unit Non-Supervisory Employees (performance process),
           which are distributed by the Director of HR each plan year, the employee and
           supervisor (reviewer) should jointly develop annual objectives and complete the
           employees’ performance plan. The employee, supervisor, and second level supervisor
           are required to sign the plan.  Three (3) of six (6) HR staff members did not have a
           detailed performance plan for 2011-2012, and 3 of 6 HR staff members who had
           performance plans had no required second level supervisory approval signature.
           Not having documented performance plans increases the risk that OHR staff may not
           have a clear understanding of their goals and objectives (day-to-day tasks, back-up
           assistance to other team members, training, special projects, etc.). Documented
           performance plans are important tools not only for the employee, but management
           also. They provide shared expectations for the coming performance year and




                                                                                                      18
Audit of the FEC’s Office of Human Resources 	                                          OIG-12-05


           enable the employee to know what is expected of them and provides management with
           a guide to assist the employee in reaching their goals and correcting problems with
           performance at an earlier stage.

           Mid-year reviews/annual performance appraisals:
           The FEC’s performance process states that mid-year reviews are mandatory for all
           non-bargaining unit employees (this would include all OHR staff) and they are due by
           January 30 of each year. For the mid-year review the employee should complete “key
           accomplishments” and for the annual performance appraisal process, the employee
           must prepare a self-assessment. The reviewer must meet with the employee to provide
           performance feedback and the discussion must be documented in a mid-year review
           form and annual performance appraisal form. Then, the form must be signed by both
           the employee and the reviewer. Based on OIG testing, we found the following
           exceptions:

           	 Mid- year reviews were not timely for three OHR staff members. One staff
              member’s mid-year review was not completed until May (four months late), and
              one was not completed until June which is the last month of the performance year.
              Also, there was no evidence to support that one staff member received a mid-year
              review.
           	 Mid-year reviews were not adequately documented for all HR staff members,
              including the Director of HR. The mid-year review form only included the initials
              of the staff and supervisor. There was not a written summary of the review or what
              was discussed.
            There was no evidence to support that HR members completed mid-year self
              assessments (evaluations).
            Only one HR employee had evidence of a year-end self assessment.

           Failing to comply with the required performance appraisal process increases the risk
           that:

           	 All HR staff may not have documented performance plans to provide a clear
              understanding of their goals and objectives (day-to-day tasks, assistance to other
              team members, training, special projects, etc.);
            Employees may not receive constructive and timely feedback on performance;
            Supervisors and management may fail to understand the challenges and obstacles
              that prevent OHR staff from achieving their goals and objectives;
            Low or poor performance is not corrected/addressed in a timely manner; and



                                                                                                    19
Audit of the FEC’s Office of Human Resources 	                                           OIG-12-05


           	 Disparity between the employees’ and supervisors’/management’s perception of
              employee performance could impact employee morale.

        In response to this testing, OHR management stated that their general practice was to
        only orally communicate the details of the mid-year reviews, and only sign the mid-year
        review form to indicate that it was done. OHR management stated they were unaware
        that the policy required mid-year reviews to be documented in writing. However, the
        instructions distributed FEC-wide by the Director of HR clearly include this requirement.
        The OIG’s findings in this area are especially troubling because one of the OHR’s
        responsibilities for the agency is to oversee the performance management process for all
        employees, and OHR was not following this same process for their own office. The
        OHR’s weaknesses in this area and lack of understanding of their own process are
        noteworthy and concerning.

        Recommendation #5
        Ensure all HR staff has detailed performance plans that include their specific tasks and
        goals for their HR position.

                Management Response:
                Office of Human Resource Management (Management) agrees with this
                recommendation.

                OIG Comment:
                The OIG looks forward to reviewing corrective actions planned by management
                to ensure that it fully addresses this recommendation.

        Recommendation #6
        Ensure all performance plans are properly reviewed and approved by the first and second
        line supervisors in accordance with the annual performance appraisal process.

                Management Response: 

                Office of Human Resource Management (Management) agrees with this

                recommendation. 


                OIG Comment:
                The OIG looks forward to reviewing corrective actions planned by management
                to ensure that it fully addresses this recommendation.




                                                                                                     20
Audit of the FEC’s Office of Human Resources                                             OIG-12-05


        Recommendation #7
        Ensure that all staff completes the required self assessment for the mid-year and year-end
        performance review.

                Management Response:
                Office of Human Resource Management (Management) agrees with this
                recommendation.

                OIG Comment:
                The OIG looks forward to reviewing corrective actions planned by management
                to ensure that it fully addresses this recommendation.

        Recommendation #8
        Ensure that the mid-year review discussion is documented and signed off by the
        employee and supervisor in accordance with the annual performance appraisal process.

                Management Response:
                Office of Human Resource Management (Management) agrees with this
                recommendation.

                OIG Comment:
                The OIG looks forward to reviewing corrective actions planned by management
                to ensure that it fully addresses this recommendation.

        Recommendation #9
        Ensure all required sections of the annual performance appraisal process are completed,
        discussed and properly reviewed by the due dates specified in the performance appraisal
        template.

                Management Response:
                Office of Human Resource Management (Management) agrees with this
                recommendation.

                OIG Comment:
                The OIG looks forward to reviewing corrective actions planned by Management
                to ensure that it fully addresses this recommendation.




                                                                                                     21
Audit of the FEC’s Office of Human Resources                                             OIG-12-05


        II. Technology & Automation

           The Office of Human Resources has not utilized available technology and automated
           tools to help streamline OHR processes and improve internal controls.

           A.  Ineffective Use of the FHR System

           OHR purchased the Federal Human Resources (FHR) Navigator System in September
           2010 to assist with automating and integrating human resources processes. The FHR is
           a software package used by several government agency HR offices. OHR initially
           purchased six modules but has only fully implemented one module
           (Retirement/Separation) since acquiring the system approximately 2 ½ years ago.
           According to OHR Management, the main reason why all modules were not
           implemented upon purchase is because it was determined after the purchase that the
           FHR system could not be integrated with FEC’s current payroll system. OHR
           Management decided to put the implementation of the other five FHR modules on
           hold and began to evaluate the feasibility of an HR Line of Business (LOB) as an
           alternate solution. The objective of an HR LOB is to transition an agency’s entire HR
           office or specific HR function(s) to another government agency to help automate and
           streamline the support functions while freeing agency resources to focus on their core
           business. The LOB analysis was completed in May 2012 and was determined not to be
           a cost effective option based on the initial cost of the LOB received by the agency.

           The lack of effective planning by OHR prior to the purchase of the FHR resulted in
           wasted funds of $13,280, the cost of the modules not being used for the period from
           September 2010 to February 2013. According to OMB Circular A-123,
           Management’s Responsibility for Internal Control, “…The proper stewardship of
           Federal resources is an essential responsibility of agency managers and staff. Federal
           employees must ensure that … Federal resources are used efficiently and effectively to
           achieve desired objectives. Programs must operate and resources must be used …
           with minimal potential for waste….”

           As a result of improper planning, many OHR processes and procedures that could
           have been automated in 2010 are currently still manual or not available. Therefore,
           the OHR is not operating as efficiently as possible, which in turn is having an adverse
           effect on customer service. OIG notes that OHR has initiated pilot testing for one (1)
           of the unused modules purchased in September 2010, and the recruitment module
           purchased in 2012, immediately after OIG inquired about the status of implementing
           FHR. In addition, an interim solution to the lack of integration with


                                                                                                     22
Audit of the FEC’s Office of Human Resources                                             OIG-12-05


           FEC’s payroll system was implemented, and data is now uploaded to FHR twice a
           month. However, the data uploaded to FHR is not “real time” (one month lag). Once
           the FHR modules are fully implemented, controls and efficiencies over the applicable
           processes are expected to improve. This in turn should allow HR more time to
           concentrate on responding to and resolving employee inquiries.

           Recommendation #10
           Fully implement the FHR modules to the maximum extent feasible to improve the
           effectiveness and efficiency of the OHR by September 2013.

                Management Response:
                Office of Human Resource Management (Management) partially agrees with this
                recommendation. OHR is on the way to implement the FHR modules that are
                already purchased; however, currently there are some technical issues for the full
                implementation that require additional funding. The FHR modules’
                implementation will be delivered based on availability of funds and priorities of
                staff members’ assignments. At this point, and before assessment of the OHR
                structure, priorities, and available resources; management cannot commit to the
                September 2013 deadline for full implementation.

                OIG Comment:
                The OIG believes management’s response will address this recommendation. We
                look forward to reviewing the automated processes once FHR modules have been
                fully implemented.

           Recommendation #11
           Establish an agreement with the Information Technology Division (ITD) to have an
           ITD staff member(s) assigned to the HR office to aid in any technical issues with
           project implementation.

                Management Response:
                Office of Human Resource Management (Management) partially agrees with this
                recommendation. Currently, OCIO staff members are assisting HR Office in
                technical issues and project implementation; however, OCIO is unable to provide
                dedicated staff member, due to lack of resources. Also, each project may require
                different type of OCIO expertise and different OCIO staff member may be
                assigned to different HR projects.




                                                                                                     23
Audit of the FEC’s Office of Human Resources 	                                              OIG-12-05


                OIG Comment:
                The OIG agrees that corrective actions by management will address the current
                OHR projects to implement FHR modules. However, OIG believes that
                Management should consider a formal agreement with ITD to ensure OHR’s
                future technical needs are met; this would not require a dedicated ITD staff
                member.

           Recommendation #12
           Develop and implement a template planning document guide prior to a) purchasing a
           new system; b) implementing/revamping a system (internal or external); or c)
           acquiring services (service provider, HRLOB, interagency agreements, etc.) that
           details:
               a.	 the needs of the office;
               b.	 services/benefits that will be received (ex: fully meets objectives, cost savings,
                    etc.);
               c.	 any affects (positive/negative) to other offices that could be impacted or
                    benefit from consultation;
               d.	 costs to the agency, both start-up and ongoing;
               e.	 alternative solutions (if any);
               f.	 implementation dates/milestones; and
               g.	 HR and other staff responsible for oversight and implementation.

                Management Response:
                Office of Human Resource Management (Management) agrees with this

                recommendation.


                OIG Comment:
                The OIG looks forward to reviewing corrective actions planned by management
                to ensure that it fully addresses this recommendation.

           B. OHR is not Properly Utilizing and Maintaining their FECNet Page

            Agency intranet websites, such as the FEC’s ‘FECNet,’ that include individual
            division/office web pages can be an effective communication tool and use of
            technology. Specifically for OHR, an office intranet site can be a great tool for
            customer service in providing timely information to their customers. It can also help
            with streamlining processes and allowing easy access to important documents (e.g.
            central repository for policies and procedures, access to forms/requests, etc.).




                                                                                                        24
Audit of the FEC’s Office of Human Resources 	                                           OIG-12-05


            Based on audit work performed, OIG determined that OHR’s intranet pages are
            outdated and have not been updated since April 2012. Per OMB Circular A-123,
            Management’s Responsibility for Internal Control, Section II, Standards: D.
            Information and Communications, “…Information should be communicated to
            relevant personnel at all levels within an organization. The information should be
            relevant, reliable, and timely...”

            During audit testing, the OIG noted the following issues with OHR’s FECNet pages:
             The office organizational chart has not been updated to reflect the staff
               reorganization that became effective in April 2012;
            	 Five former employees, who have been separated from the agency for at least
               three years, are included on the OHR’s organization chart posted on HR's FECNet
               page;
            	 HR's “Contact Us” page has not been updated to reflect current employees;
            	 The "Welcome Message" from the HR Director is signed by the former Director
               of HR who separated from the agency in February 2010. However, the “Contact
               Us” page did list the current Director of HR.
             Information regarding FEC Ethics Officials are former employees who separated
               from the FEC in May 2011 and June 2012; and
             Several toolbar tabs are not properly linked to information or do not work.
               (Training, What’s New, etc.).

            According to the Director of HR, the OHR FECNet page(s) were corrupted in April
            2012 and the reconstruction of the FECNet page has not been a priority. The OIG
            believes that the failure to properly utilize and ensure the OHR’s FECNet information
            is relevant and timely increases the risk that:
             FEC staff are unaware of who to contact in HR for specific needs;
             FEC employees are relying on outdated OHR information; and
             Unreliable information for basic forms and policies may increase the number of
                 inquires received by OHR and decrease staff productivity.

            In addition, OIG concludes that the consistent lack of accuracy and timeliness of
            information provided by OHR is contributing to the FEC staff’s negative perception
            and lack of confidence in the HR office as reflected in OHR’s annual customer
            service surveys.




                                                                                                     25
Audit of the FEC’s Office of Human Resources                                          OIG-12-05


            Recommendation #13
            Identify one HR staff member who will be the owner/manager of the content for HR's
            FECNet page and revise their annual performance plan to reflect their duties and
            responsibilities for maintaining the content of HR's FECNet page.

                Management Response:
                Office of Human Resource Management (Management) agrees with this
                recommendation. OHR had an “owner” of FECNet page who left FEC and the
                position was not backfilled. However, OHR will be assigning a new content
                manager who will act as a team lead to ensure HR’s FECNet pages are updated
                and revised periodically.

                OIG Comment:
                The OIG agrees that corrective actions planned by Management should address
                this recommendation.

            Recommendation #14
            Update all content on HR's FECNet page by September 2013 to ensure all
            information is accurate, up-to-date, and relevant.

                Management Response:
                Office of Human Resource Management (Management) agrees with this
                recommendation.

                OIG Comment:
                The OIG looks forward to reviewing corrective actions planned by Management
                to ensure that it fully addresses this recommendation.

            Recommendation #15
            Establish an agreement with ITD to have an ITD staff member(s) assigned to the
            OHR to aid in any technical issues with developing HR’s FECNet page.

               Management Response:
               Office of Human Resource Management (Management) partially agrees with this
               recommendation. ITD staff members have always been very responsive in
               resolving technical issues for the HR’s FECNet page. ITD does not have the
               resources to provide a dedicated assigned ITD staff to HR office. However, as
               problems rise ITD and OHR will work together to solve them as soon as possible,



                                                                                                  26
Audit of the FEC’s Office of Human Resources                                            OIG-12-05


               knowing that HR FECNet page is important tool for HR communications with its
               customers.

                OIG Comment:
                The OIG agrees that corrective actions planned by management should address
                the current issues with OHR’s FECNet page(s). However, OIG believes that
                Management should consider a formal agreement with ITD to ensure OHR’s
                future technical needs are met; a dedicated ITD staff member would not be
                required.

           C. Electronic Fingerprint Scheduling Process not Fully Implemented

           Currently, OHR staff is manually scheduling and tracking fingerprints for contractors
           and new hires when an automated process is available to streamline the process and
           provide a central place for storing fingerprint appointments. Fingerprints are required
           as part of the background check process. OIG notes that a former OHR employee set
           up an electronic fingerprint scheduling process via Lotus Notes, the FEC’s email
           program, but the available tool and process has not been documented, fully
           implemented or communicated to contracting officer representatives (COR) who are
           responsible for coordinating with OHR to bring contractors onboard that need
           fingerprints recorded. According to OMB Circular A-123, Management’s
           Responsibility for Internal Controls, management should ensure adequate control
           activities are implemented to include “policies, procedures and mechanisms in place to
           help ensure that agency objectives are met…” In addition, “…information should be
           communicated to relevant personnel at all levels within an organization…”

           Neglecting to use the Lotus Notes process for scheduling fingerprints decreases the
           productivity of HR staff. Not using a centralized place for documenting fingerprint
           appointments that is visible to multiple OHR staff reduces the likelihood that an OHR
           staff member is always available for scheduled appointments. This in turn increases
           the risk that fingerprint appointments must be cancelled and rescheduled when there is
           a lack of coverage in OHR.

           Recommendation #16
           Fully implement the electronic fingerprint scheduling process and notify CORs that it
           is available.




                                                                                                     27
Audit of the FEC’s Office of Human Resources                                              OIG-12-05


                Management Response:
                Office of Human Resource Management (Management) agrees with this
                recommendation.

                OIG Comment:
                The OIG looks forward to reviewing corrective actions planned by Management
                to ensure that it fully addresses this recommendation.

           Recommendation #17
           Develop a policy and procedures that documents and instructs how to use the 

           electronic fingerprint scheduling tool. 


                Management Response:
                Office of Human Resource Management (Management) agrees with this
                recommendation.

                OIG Comment:
                The OIG looks forward to reviewing corrective actions planned by Management
                to ensure that it fully addresses this recommendation.

        III. Office Operations

            Office operations relates to the day-to-day functions of the OHR to include hiring,
            personnel actions, retirement, etc. Overall, OIG determined that OHR processes are
            not operating effectively because (1) adequate internal controls are not in place; and
            (2) policies and procedures are outdated, not formally documented, or not enforced.
            Details of findings are described below:


            A. HR On Demand Process is Ineffective

            Based on the OIG’s OHR customer service survey conducted in September 2012,
            53% of the employees who responded to the survey stated that they were somewhat
            dissatisfied or very dissatisfied with the timeliness of responses received from OHR.
            In addition, there were 40 comments received from 116 employees who completed
            the survey that specifically talked about the lack of timely responses from the Office
            of Human Resources.

            The HR On Demand system and process, which is a centralized employee inquiry
            receipt and tracking system, was implemented to improve OHR’s response time to


                                                                                                      28
Audit of the FEC’s Office of Human Resources 	                                            OIG-12-05


            employee requests/inquiries, was not properly designed and implemented. Based on
            OIG inquiries and observations, we noted the following inefficient use of the database
            is negatively impacting customer service.
             All HR On Demand inquiries received via email must also be manually entered
                into the customer service access database to track and monitor employee 

                inquiries/requests. This is not an efficient use of OHR resources. 

            	 HR On Demand is also used to track other OHR tasks/assignments, which reduces
                the effectiveness of monitoring the status of outstanding inquiries. OIG notes that
                the original purpose of HR On Demand was to improve OHR response time to
                employee requests.
            	 HR On Demand inquiries related to personnel actions are entered into the HR on
                Demand customer service access database as well as logged into a Microsoft
                Excel spreadsheet specifically used to track personnel actions. This is a
                duplication of effort and inefficient.

            OIG also sampled 13 inquiries received via the HR On Demand email system
            between January and November 2012 and reviewed the OHR’s response to the
            inquiries for timeliness. Test results determined that seven (7) of 13 (54%) inquiries
            sampled were not resolved timely. Of the 7 inquiries that were not resolved timely:
             3 inquiries required follow-up with OHR by the FEC employee because a
               response was never provided to the initial request.
            	 4 inquiries required follow-up with OHR on multiple occasions because the initial
               request was not adequately resolved by OHR, or OHR failed to work with other
               offices/divisions to sufficiently resolve customer issues.

            During testing, OIG determined that many HR On Demand inquiries are related to
            personnel actions. Based on the OIG’s review of three (3) of the seven (7) inquiries
            related to personnel actions, we identified that the Director of HR is not consistently
            approving Request for Personnel Actions Forms (SF-52s) in a timely manner. In
            addition, one of these SF-52s was approved after it was processed in the National
            Finance Center (NFC) payroll system, which is not in compliance with policy and
            procedures related to personnel actions. Personnel actions should be approved by the
            HR Director prior to being processed and effective in the NFC system.

            According to OMB Circular A-123, Management’s Responsibility for Internal
            Control “... As agencies develop and execute strategies for implementing or
            reengineering agency programs and operations, they should design management
            structures that help ensure accountability for results.”




                                                                                                      29
Audit of the FEC’s Office of Human Resources 	                                           OIG-12-05


            An OHR email announcement, dated October 31, 2011, to introduce the HR On
            Demand process to FEC staff stated that requestors should “…receive an
            acknowledgement the same day and generally a response within 24 hours...”

            There are several factors that contributed to the ineffective implementation of HR on
            Demand:
            1.	 The system used to receive employee inquiries (HR On Demand mailbox account
                via Lotus Notes) was not integrated with the Microsoft Access database created to
                track and monitor employee inquiries. As a result, there is a lag time between
                when inquiries are received in the HR On Demand email system and when they
                are logged and updated in the database.
            2.	 Lack of proper planning and research to determine if there was available off-the­
                shelf software (e.g. the Remedy help desk system used by the FEC IT department)
                that could be utilized.
            3.	 No formal policy and standard operating procedures were documented by the
                OHR. OIG notes that OHR only has a flowchart of the HR On Demand process,
                but no formal policy or standard operating procedure that clearly explains how the
                process works, what each staff person’s responsibility is, timing of when inquiries
                are supposed to be entered into the database, when an inquiry can be considered
                “closed” in the database, and what other types of assignments beyond FEC staff
                inquiries should be entered into the database, if any.
            4.	 Miscommunication or misunderstanding between the Director of HR and the
                OHR staff related to non-HR On Demand inquires and assignments were also
                required to be entered into the HR On Demand Access database. As a result,
                there were inconsistencies among OHR staff members as to what was included in
                the database. Some employees were including what appeared to be every single
                task completed throughout their work day, such as HR staff meetings, rather than
                tasks directly related to customer service issues.

            Currently, OHR Management is not using the HR On Demand system as a tool to
            improve timeliness and other customer service issues. This was evident by the time it
            took to receive requested reports during the course of the audit and the lack of
            timeliness in responding to FEC employees’ requests for assistance. The time and
            effort required to properly manage the database could be better used to actually
            address employee inquiries and/or resolving employee issues. Improving the controls
            and streamlining the HR On Demand process will increase the likelihood that
            employee inquiries will be resolved timely and thus help improve customer service.
            OIG notes that subsequent to our inquiries about the HR On Demand process,




                                                                                                      30
Audit of the FEC’s Office of Human Resources                                            OIG-12-05


            OHR began working with ITD to fully automate the HR On Demand process by
            implementing the same customer request tracking system (“Remedy”) used by the IT
            helpdesk.

            Recommendation #18
            Management should ensure OHR and ITD continue to work together to ensure that
            “Remedy” is properly implemented, tested, and customized to fit the needs of the HR
            on Demand process. The Remedy solution should be fully implemented by
            September 2013.

                Management Response:
                Office of Human Resource Management (Management) partially agrees with this
                recommendation. Management agrees that OHR staff should work with OCIO to
                implement technological solutions at OHR. Even before receiving results of the
                OIG’s customer survey of OHR, Management was aware that a system is required
                for tracking and providing visibility for improving OHR customer service. In
                2012 the HR Director met with the IT Helpdesk Manager and requested to create
                a customer request tracking system similar to the Remedy system used by the IT
                Helpdesk. The Remedy system provides visibility and audit trail for handling
                customers’ requests by the IT Helpdesk. At that time the system was not available
                for OHR, therefore the HR on Demand was resurrected as a temporary band-aid
                while the HR Director explored other means. When the Remedy system became
                available, Management took immediate remedial action and developed the system
                for tracking customers’ requests. OHR staff is being trained and the system will
                be fully functional by the end of July. The effectiveness of the Remedy system
                and the provided customer service training to the HR staff will be re-evaluated in
                September 2013.

                OIG Comment:
                The OIG agrees with management that the Remedy system will automate the
                tracking and monitoring of employee inquiries and should improve OHR response
                time to employee inquiries. Once the Remedy system is fully implemented, we
                look forward to reviewing the results to ensure that the system is operating
                effectively and has improved OHR responsiveness to employee requests.

            Recommendation #19
            Once the Remedy customer request tracking system is implemented, OHR
            Management should determine the most effective way to use the automated system to
            improve the HR On Demand process and leverage the new system to streamline


                                                                                                     31
Audit of the FEC’s Office of Human Resources                                            OIG-12-05


            other related processes and procedures. In addition, this new process along with other
            related processes should be formally documented in a policy and/or standard
            operating procedures(SOP). The policies/SOPs should clearly document each OHR
            members’ role and responsibilities, as well as details about the technical and
            operational components of the processes.

                Management Response:
                Office of Human Resource Management (Management) agrees with this

                recommendation. 


                OIG Comment:
                The OIG agrees that corrective actions in progress and planned by management
                should address this recommendation. OIG looks forward to reviewing once fully
                implemented to ensure this recommendation has in fact been fully addressed.

            Recommendation #20
            Management should ensure the entire OHR staff is adequately trained on how to use
            the new Remedy customer request tracking system.

                Management Response:
                Office of Human Resource Management (Management) agrees with this

                recommendation.


                OIG Comment:
                The OIG looks forward to reviewing corrective actions planned by management
                to ensure that it fully addresses this recommendation.

            B. Non-compliance with FEC’s Recruitment/Selection Process

            The FEC is not consistently complying with the current employee recruitment and
            selection procedures. According to OMB Circular A-123, Management’s
            Responsibility for Internal Control, Section I (Introduction) “… Management has a
            fundamental responsibility to develop and maintain effective internal control. …
            Federal employees must ensure that Federal programs operate … efficiently and
            effectively to achieve desired objectives. Programs must operate … in compliance
            with laws and regulations, and with minimal potential for … mismanagement…“

            A vacancy announcement (VA) is the formal document used to communicate and to
            advertise open positions at the FEC.


                                                                                                     32
Audit of the FEC’s Office of Human Resources 	                                           OIG-12-05


            The VA includes the position title, salary range, job responsibilities, among other
            criteria for applicants to apply for FEC jobs. The OIG judgmentally sampled 10 VA’s
            during FY 2011 and FY 2012 and reviewed related files for compliance with current
            procedures and noted the following:
            	 1 of 10 included the wrong salary range (salary maximum range listed was for
                GS-10 instead of a GS-9).
            	 8 of 10 had an SF-52 (Request for Personnel Action) that was signed-off by the
                hiring official, Budget Office, and the Director of HR after the VA was
                advertised. Positions are required to be approved by these offices before they can
                be advertised.
            	 4 of 10 VAs included an SF-52 that did not include proper review and approval (3
                did not include sign-off by a HR Staffing and Classification Specialist and one (1)
                did not include any of the required sign-offs).
             2 of 10 hiring files did not include evidence to support why all candidates that
                met minimum qualifications were not rated and ranked. According to FEC hiring
                practices, all candidates that meet minimum qualifications should be rated based
                on predetermined criteria. Both hiring actions were for Office of General Counsel
                (OGC) positions. According to OGC, documentation is not maintained to
                evidence the additional criteria used to determine which candidates to rate and
                rank when a large number of applicants meet the minimum qualifications. OIG
                notes that this additional criteria and how it was applied should have been
                documented.
            	 3 of 10 hiring files were missing evidence to support that structured interviews
                were conducted. Structured interviews include pre-established standard questions
                that are asked of all interviewees. The purpose is to ensure all interviewees are
                fairly evaluated. Based on follow-up with HR, evidence was subsequently
                obtained for two (2) selections. OIG notes that evidence to support structured
                interviews should be maintained in the hiring file.
            	 9 of 10 did not include adequate evidence that the position was approved by the
                Personnel Committee (PC). The Personnel Committee is composed of two
                Commissioners, and all new and vacant positions must be approved by the PC.
                Prior to June 2012, the only evidence required for PC approval was an email from
                the hiring official stating PC approval received. As of June 2012, OHR
                implemented the personnel request (PR) form which requires the hiring official to
                check-off that the position was approved by the PC. The PR form was missing for
                2 of 3 positions posted after the effective date of the PR form.




                                                                                                      33
Audit of the FEC’s Office of Human Resources 	                                              OIG-12-05


                Based on additional OIG follow-up, which included the above testing and
                inquiries, to employee issues communicated during survey interviews, OIG noted
                the following:
                 OHR notifications sent to internal candidates (current FEC employees) related
                    to their application status do not consistently include accurate information or
                    the wrong notifications are sent. For example, one employee received a
                    notification from OHR stating they were not selected for a position they
                    applied for, when in fact they were selected and did not accept the position.
                    Another employee received a notification thanking them for interviewing and
                    stated that although they were among the best qualified they were not
                    selected. However, the person was never granted an interview, and when the
                    employee followed-up with OHR, the employee was told that the email was
                    sent to them in error, as they in fact did not make the best qualified list (which
                    OIG confirmed).
                	 Internal candidates that are interviewed and make the best qualified (BQ) list
                    do not always receive follow-up notification to inform the FEC employee that
                    they were not selected. For example, in one particular case, an FEC employee
                    applied for another FEC position seeking advancement; however, the
                    employee was not selected for the position. This person did not learn about
                    the outcome of her interview and a decision on the hiring until the successful
                    applicant started work at FEC.

                The recruitment and selection process at the FEC is still a very manual process.
                Based on our audit testing, there was a lack of HR supervisory oversight to ensure
                all steps of the recruitment process were being complied with. OIG also notes that
                OHR is not directly involved in the recruitment and selection process for OGC
                positions and does not provide proper oversight for the monitoring and
                documentation of these positions. Although there have been changes to the
                recruitment/selection process, the current policies on FEC recruitment and hiring
                are outdated. A revised final draft of the Directive for Appointment and
                Promotion Procedures for Non-Bargaining Unit Positions was forwarded to the
                Commission on July 17, 2012, but has yet to be approved by the Commission. In
                addition, OHR has developed revised standard operating procedures (SOPs) that
                include a detailed checklist for each step of the recruitment and hiring process.
                However, OIG testing determined that this checklist has not been fully
                implemented.

                Lack of proper controls, including OHR management oversight over the
                recruitment and selection process, increases the risk that:


                                                                                                         34
Audit of the FEC’s Office of Human Resources 	                                             OIG-12-05


                	 FEC may not be following standard government labor regulations and fair
                   hiring practices, which in turn increases the risk that potential discriminatory,
                   bias, or other prohibitive hiring practices could occur and go undetected.
                	 An adequate audit trail is not maintained to provide evidence of a hiring
                   action, documentation that may be needed if a job applicant is not selected for
                   a position and files a complaint, among other reasons.
                 The best qualified candidate may not be selected and/or the candidate selected
                   did not meet the appropriate criteria.
                 Positions could be filled without the proper funds available or an employee is
                   hired at a higher salary level than the position warrants.

                OIG notes that OHR is currently in the process of implementing the FHR module
                to automate the recruitment/selection process. Once this module is fully
                implemented, controls and efficiencies over the hiring process are expected to
                improve.

                Recommendation #21
                The recruitment and selection checklist should be completed by the HR Specialist
                as each step in the process is completed for each position filled. The completed
                recruitment and selection checklist should be maintained in the related VA file.

                     Management Response:
                     Office of Human Resource Management (Management) agrees with this
                     recommendation.

                     OIG Comment:
                     The OIG looks forward to reviewing corrective actions planned by 

                     Management to ensure that it fully addresses this recommendation.


                Recommendation #22
                The Supervisory HR Specialist (HR Supervisor) responsible for the recruitment
                and selection process should be required to review each VA file to ensure the
                proper documentation is included in the file and that every step on the recruitment
                and selection checklist has been completed. Once reviewed, the HR Senior
                Specialist should sign-off on the checklist indicating that the VA file is complete
                and that the recruitment and selection policy and procedures was adhered to.




                                                                                                       35
Audit of the FEC’s Office of Human Resources                                              OIG-12-05


                    Management Response:
                    Office of Human Resource Management (Management) agrees with this
                    recommendation.

                    OIG Comment:
                    The OIG looks forward to reviewing corrective actions planned by 

                    management to ensure that it fully addresses this recommendation.


                Recommendation #23
                OHR should conduct adequate oversight for all OGC positions and ensure all
                documentation is completed and included in applicable files.

                    Management Response:
                    Office of Human Resource Management (Management) agrees with this
                    recommendation. OHR should and will conduct adequate oversight for all
                    FEC positions to ensure completed documentation.

                    OIG Comment:
                    The OIG looks forward to reviewing corrective actions planned by 

                    management to ensure that it fully addresses this recommendation.


                Recommendation #24
                Management should implement Office of Personnel Management (OPM)
                guidance which states “…develop and use a ‘Hiring Contract’ between the hiring
                manager and the Human Resources Office that spells out each party's
                responsibility for filling the job...” The recruitment and selection checklist
                included in the OHR SOP for recruitment could be utilized as the hiring contract
                and this checklist should be reviewed with the hiring official at the beginning and
                throughout the recruitment and hiring process to discuss timelines and
                expectations.

                    Management Response:
                    Office of Human Resource Management (Management) agrees with this
                    recommendation.

                    OIG Comment:
                    The OIG looks forward to reviewing corrective actions planned by 

                    management to ensure that it fully addresses this recommendation.




                                                                                                      36
Audit of the FEC’s Office of Human Resources                                              OIG-12-05


            C. Outdated Global Personnel Related Policies/Directives

                All of OHR’s current policies in place have not been updated to reflect current
                practices, and policies that have been updated to reflect current practice have not
                been finalized and approved by the Commission (i.e. Policy for Appointments &
                Promotions for Non Bargaining Positions, Senior Level Pay, Dual Compensation
                Waiver, Congressional Job References Appointments above the Minimum,
                Restoration of Duty, and Position Classification). OMB Circular A-123,
                Management’s Responsibility for Internal Control, Section C (Control Activity)
                “…Control activities include policies, procedures and mechanisms in place to
                help ensure that agency objectives are met.”

                OIG notes that OHR does not have a control in place to ensure that agency-wide
                policies are periodically reviewed and updated for changes in business practices
                and/or changes in government-wide guidelines. The revised policy for
                Appointments & Promotions for Non Bargaining Positions sent by OHR to the
                Commission in July 2012 has not been finalized and approved by the Commission
                as of this date. A lack of up-to-date agency-wide policies and procedures that
                reflect current business practices and requirements increases the risk that the FEC
                has internal controls that are not properly implemented and thus not effective. For
                example, changes in federal personnel laws and regulations will not be reflected
                in FEC policy and can create non-compliance with laws and regulations intended
                to promote fair hiring practices; employees could be promoted before they are
                eligible for promotion; or cash awards, benefits and pay could be paid to
                employees who are not eligible or for incorrect amounts. In addition, for
                managers/employees who are performing or involved in an HR-related task for
                the first time (e.g. processing a new hire/separation, scheduling contractor
                fingerprints), the manager/employee may not be aware of their responsibilities or
                lack proper guidance to ensure that they are in compliance.

                Recommendation #25
                OHR should periodically (at least annually) review all HR-related policies and
                procedures for the agency and for the OHR to ensure policies and procedures are
                accurate and relevant, and update as needed.

                        Management Response:
                        Office of Human Resource Management (Management) agrees with this
                        recommendation. The OIG statement is partially correct. Two thirds of the
                        FEC employees are bargaining unit employees who follow the Labor


                                                                                                      37
Audit of the FEC’s Office of Human Resources                                               OIG-12-05


                        Management Agreement. The policies for bargaining unit employees are
                        all updated, negotiated, and approved under the LMA as of May 12, 2013.
                        All the managers were trained by OHR on the contents of the LMA and
                        the approved agreement has been provided to all staff and is posted on the
                        FECNet. OHR is addressing final stakeholder comments in several
                        policies.

                        OIG Comment:
                        The OIG notes that one third of the FEC employees are not part of the
                        bargaining unit and thus policies that impact any and all agency
                        employees should be up to date.
                        The OIG looks forward to reviewing corrective actions planned by
                        management to ensure that it fully addresses this recommendation.

                Recommendation #26
                All policies and procedures should be posted in a central location accessible to all
                FEC staff (ex: FECNet, the FEC computer server). In addition, when policies and
                procedures are updated they should be reposted and an email sent to all FEC staff
                on the changes/updates.

                        Management Response:
                        Office of Human Resource Management (Management) agrees with this
                        recommendation.

                        OIG Comment:
                        The OIG looks forward to reviewing corrective actions planned by
                        management to ensure that it fully addresses this recommendation.




                                                                                                       38
Audit of the FEC’s Office of Human Resources                                             OIG-12-05


                                         CONCLUSION 


        The areas that were reviewed by the OIG during this audit of the Office of Human
        Resources (OHR) all link back to a review of the effectiveness of OHR’s customer
        service. In order for the OHR staff to provide effective customer service, the information
        and communication provided to their customers (FEC employees, job applicants, etc.)
        must be relevant, timely, and reliable. In addition, the OHR staff as a whole must be
        equipped with the knowledge and skills to carry out the mission and objectives of the
        office. Based on this audit, and the responses to the OIG’s HR customer service survey
        from 2012, OHR has not managed to find a consistent way to provide effective and
        efficient customer service to FEC staff. Based on the audit results, there are several
        factors that contributed to OHR’s inadequate customer service. These factors include:
             Inadequate leadership/program management;
             Inadequate performance management, and
             Lack of automation.

        Management did not adhere to the Title 5, Code of Federal Regulations, (Administration
        Personnel)7 by failing to provide managerial training to the Director of OHR within one
        year of initial appointment. As the Director of OHR’s position was a critical career
        transition from a non-supervisory position to a manager, training should have been
        provided to the HR Director in a timely manner, rather than 14 months after appointment.
        In addition, OIG notes that many leadership shortcomings were highlighted via the
        workforce gap analysis, interviews by the OIG with OHR staff, and the existing
        challenges in OHR to accomplish their mission. Adequate leadership is a critical factor
        in the success of achieving the mission and goals of the HR office. Therefore, OIG
        recommended that the agency enter into a detail agreement or another similar mechanism
        to bring on-board, for a temporary period, a seasoned federal government HR leader.
        This temporary detail is necessary to provide the Director of OHR and staff the guidance
        and direction to bring about change to the OHR. OIG acknowledges that Management
        has brought in a seasoned federal employee that is an SES candidate from another
        agency. This person is on a four month detail, with the possibility of an extension, and
        has specific goals including (1) improve OHR staff performance and moral; (2) improve
        OHR customer service; and (3) develop performance measurements. Although the SES
        candidate does not have an HR background, he has experience with process re-
        engineering and managing a large office which should benefit the OHR.




        7
            5 C.F.R. § 412.202 (2011).


                                                                                                     39
Audit of the FEC’s Office of Human Resources                                                OIG-12-05


        The OIG notes that the majority of OHR’s processes are handled manually which
        increases the susceptibility to human error which has a direct impact on customer service.
        The OIG recognizes that OHR management is committed to improve customer service
        and has agreed to implement many of the OIG's recommendations. For example, OHR
        management is currently pilot testing several FHR modules and is in the process of
        implementing the new automated customer service tracking system (“Remedy”). The
        OIG encourages OHR management to invest the necessary time and resources to
        adequately develop a realistic plan of action for resolving the audit findings in this report,
        ensure the plan is properly communicated to all OHR staff, and ensure continuous
        dialogue with the OHR's primary customers, the FEC staff. OIG believes that once OHR
        takes full advantage of existing technology, they will be able to streamline processes
        which in turn should increase productivity and help to improve customer service.




                                                                                                         40
Audit of the FEC’s Office of Human Resources                                                                   OIG-12-05




          Summary of Audit Findings and Recommendations and Management’s
                                      Response
           Finding               Recommendation                  Management Response                        OIG Comment
    1A. Ineffective         1. OHR Management should         Agree with recommendation             The OIG looks forward to
    Leadership              reevaluate methods used to                                             reviewing corrective actions
                            communicate expectations, to                                           planned by Management to
                            give feedback on staff                                                 ensure that it fully addresses
                            performance, and to promote                                            this recommendation.
                            and address feedback from
                            OHR staff in order to identify
                            meaningful solutions to
                            improve the organization.
                            Then, OHR Management
                            should make it a priority to
                            implement corrective actions.


                            2. OHR Management should         Agree with recommendation             The OIG looks forward to
                            make a clear distinction                                               reviewing corrective actions
                            between the roles of the                                               planned by management to
                            Director of OHR and the two                                            ensure that it fully addresses
                            supervisors who are                                                    this recommendation.
                            responsible for supervising
                            their subordinates on a daily
                            basis. In addition, the roles
                            and responsibilities for each
                            OHR member should be
                            clearly communicated.
                            3. The FEC should pursue a       Disagree with recommendation:         Based on OIG’s review of the
                            detail or other type of          “In this sequestered budgetary        SES candidate’s background,
                            agreement with another           environment, it is unlikely that a    past experience, and objectives
                            federal agency to bring on       seasoned federal official trained     for this assignment, it appears
                            board, no less than six          specifically in HR matters will       that the SES candidate could be
                            months, a seasoned HR            leave its agency to help the FEC,     helpful in providing valuable
                            professional with significant    at no cost to the Commission.         guidance and help improve the
                            experience in federal            However, Management was               OHR. We look forward to
                            government HR operations,        successful in creating a win-win      reviewing the results and
                            management and customer          situation by bringing a SES           recommendations from this
                            service, to provide clear        candidate (at no cost to the          assignment to determine if
                            direction, training, and focus   Commission) to help with the          desired results have been
                            to improve the HR office.        issues as part of his development     achieved.
                                                             assignments. In addition, the
                                                             Deputy Staff Director for
                                                             Management and Administration
                                                             assumed the managerial role of
                                                             the OHR for the months of May
                                                             and June and conducted team
                                                             meetings on a weekly basis in
                                                             order to strengthen team morale,
                                                             staff collaboration, and
                                                             improving customer service. The
                                                             effectiveness of these recent
                                                             initiatives will be re-evaluated in
                                                             September 2013.”




                                                                                                                                     41
Audit of the FEC’s Office of Human Resources                                                                    OIG-12-05



          Summary of Audit Findings and Recommendations and Management’s
                                      Response
           Finding                Recommendation                   Management Response                        OIG Comment
    1B. Inadequate          4. OHR Management should          Agree with recommendation:            The OIG agrees that the OHR
    Organizational          reassess the new OHR office       “Although Management already          reorganization was better than
    Structure               structure to determine if there   started to reassess the existing      the existing structure at the time
                            is a need to adjust the           structure, roles, and
                                                                                                    and that management could not
                            functions/tasks between the       responsibilities it is important to
                            two teams, and/or individual      note that the OHR restructuring       have foreseen that individuals
                            team members, in order to         provided a better structure than      in critical roles would leave the
                            better balance the workload       it had before by engaging staff in    agency. In light of the current
                            amongst the teams/team            the OHR office design. The OHR        situation in OHR, we are
                            members.                          engaged in several team building      pleased that management has
                                                              sessions where roles and              begun to reevaluate if
                                                              responsibilities were repeatedly
                                                                                                    adjustments are warranted. The
                                                              clarified and discussed. The
                                                              sessions also focused on setting      OIG looks forward to reviewing
                                                              priorities and improving              corrective actions to ensure that
                                                              customer service.”                    it fully addresses this
                                                                                                    recommendation.


    1C. Non-compliance      5. Ensure all HR staff have       Agree with recommendation             The OIG looks forward to
    with FEC’s              detailed performance plans                                              reviewing corrective actions
    Performance Plan        that include their specific                                             planned by management to
    and Appraisal Policy    tasks and goals for their HR                                            ensure that it fully addresses
                            position.                                                               this recommendation.

                            6. Ensure all performance         Agree with recommendation             The OIG looks forward to
                            plans are properly reviewed                                             reviewing corrective actions
                            and approved by the first and                                           planned by management to
                            second line supervisors in                                              ensure that it fully addresses
                            accordance with the annual                                              this recommendation.
                            performance appraisal
                            process.
                            7. Ensure that all staff          Agree with recommendation             The OIG looks forward to
                            completes the required self                                             reviewing corrective actions
                            assessment for the mid-year                                             planned by management to
                            and year-end performance                                                ensure that it fully addresses
                            review.                                                                 this recommendation.

                            8. Ensure that the mid-year       Agree with recommendation             The OIG looks forward to
                            review discussion is                                                    reviewing corrective actions
                            documented and signed off by                                            planned by management to
                            the employee and supervisor                                             ensure that it fully addresses
                            in accordance with the annual                                           this recommendation.
                            performance appraisal
                            process.
                            9. Ensure that all required       Agree with recommendation             The OIG looks forward to
                            sections of the annual                                                  reviewing corrective actions
                            performance appraisal process                                           planned by management to
                            are completed, discussed and                                            ensure that it fully addresses
                            properly reviewed by the due                                            this recommendation.
                            dates specified in the
                            performance appraisal
                            template.




                                                                                                                                         42
Audit of the FEC’s Office of Human Resources                                                                    OIG-12-05



          Summary of Audit Findings and Recommendations and Management’s
                                      Response
           Finding                 Recommendation                    Management Response                     OIG Comment
    IIA. Ineffective Use of   10. Fully implement the FHR       Partially agree with                 The OIG believes that
    the FHR System            modules to the maximum            recommendation: “OHR is on           management’s response will
                              extent feasible to improve the    the way to implement the FHR         address this recommendation.
                              effectiveness and efficiency of   modules that are already             We look forward to reviewing
                              the OHR by September 2013.        purchased; however, currently        the automated processes over
                                                                there are some technical issues      FHR modules have been fully
                                                                for the full implementation that     implemented.
                                                                require additional funding. The
                                                                FHR modules’ implementation
                                                                will be delivered based on
                                                                availability of funds and
                                                                priorities of staff members’
                                                                assignments. At this point, and
                                                                before assessment of the OHR
                                                                structure, priorities, and
                                                                available resources; management
                                                                cannot commit to the September
                                                                2013 deadline for full
                                                                implementation.”

                              11. Establish an agreement        Partially agree with                 The OIG agrees that corrective
                              with the Information              recommendation: “Currently,          actions by management will
                              Technology Division (ITD) to      OCIO staff members are assisting     address the current OHR
                              have an ITD staff member(s)       HR Office in technical issues and    projects to implement FHR
                              assigned to the HR office to      project implementation; however,     modules. However, OIG
                              aid in any technical issues       OCIO is unable to provide            believes that management
                              with project implementation.      dedicated staff member, due to       should consider a formal
                                                                lack of resources. Also, each        agreement with ITD to ensure
                                                                project may require different type   OHR’s future technical needs
                                                                of OCIO expertise and different      are met.
                                                                OCIO staff member may be
                                                                assigned to different HR
                                                                projects.”




                                                                                                                                      43
Audit of the FEC’s Office of Human Resources                                                                  OIG-12-05



          Summary of Audit Findings and Recommendations and Management’s
                                      Response
          Finding                Recommendation                   Management Response                      OIG Comment
                            12. Develop and implement a       Agree with recommendation           The OIG looks forward to
                            template planning document                                            reviewing corrective actions
                            guide prior to a) purchasing a                                        planned by management to
                            new system; b)                                                        ensure that it fully addresses
                            implementing/revamping a                                              this recommendation.
                            system (internal or external);
                            or c) acquiring services
                            (service provider, HR LOB,
                            interagency agreements, etc.)
                            that details:
                              a. the needs of the office;
                              b. services/benefits that
                                   will be received (ex:
                                   fully meets objectives,
                                   cost savings, etc.);
                              c. any affects
                                   (positive/negative) to
                                   other offices that could
                                   be impacted or benefit
                                   from consultation;
                              d. costs to the agency, both
                                   start-up and ongoing;
                              e. alternative solutions (if
                                   any);
                              f. implementation
                                   dates/milestones; and
                              g. HR and other staff
                                   responsible for
                                   oversight and
                                   implementation.

    II.B. OHR is Not        13. Identify one HR staff         Agree with recommendation:          The OIG agrees that corrective
    Properly Utilizing      member who will be the            “OHR had an “owner” of              actions planned by management
    and Maintaining         owner/manager of the content      FECNet page who left FEC and        should address this
    their FECNet Page       for HR's FECNet page and          the position was not backfilled.    recommendation.
                            revise their annual               However, OHR will be assigning
                            performance plan to reflect       a new content manager who will
                            their duties and                  act as a team lead to ensure HR’s
                            responsibilities for              FECNet pages are updated and
                            maintaining the content of        revised periodically.”
                            HR's FECNet page.
                            14. Update all content on         Agree with recommendation           The OIG looks forward to
                            HR's FECNet page by                                                   reviewing corrective actions
                            September 2013 to ensure all                                          planned by management to
                            information is accurate, up-                                          ensure that it fully addresses
                            to- date, and relevant.                                               this recommendation.




                                                                                                                                   44
Audit of the FEC’s Office of Human Resources                                                                OIG-12-05



          Summary of Audit Findings and Recommendations and Management’s
                                      Response
          Finding                Recommendation                   Management Response                    OIG Comment
                            15. Establish an agreement      Partially agree with                The OIG agrees that corrective
                            with ITD to have an ITD staff   recommendation: “ITD staff          actions planned by management
                            member(s) assigned to the       members have always been very       should address the current
                            OHR office to aid in any        responsive in resolving technical   issues with OHR’s FECNet
                            technical issues with           issues for the HR’s FECNet page.    page(s). However, OIG
                            developing HR’s FECNet          ITD does not have the resources     believes that management
                            page.                           to provide a dedicated assigned     should consider a formal
                                                            ITD staff to HR office. However,    agreement with ITD to ensure
                                                            as problems rise ITD and OHR        OHR’s future technical needs
                                                            will work together to solve them    are met.
                                                            as soon as possible, knowing that
                                                            HR FECNet page is important
                                                            tool for HR communications with
                                                            its customers.”
    II.C. Electronic        16. Fully implement the         Agree with recommendation           The OIG looks forward to
    Fingerprint             electronic fingerprint                                              reviewing corrective actions
    Scheduling Process      scheduling process and notify                                       planned by management to
    not Fully               CORs that it is available.                                          ensure that it fully addresses
    Implemented                                                                                 this recommendation.



                            17. Develop a policy and        Agree with recommendation           The OIG looks forward to
                            procedures that documents                                           reviewing corrective actions
                            and instructs how to use the                                        planned by management to
                            electronic fingerprint                                              ensure that it fully addresses
                            scheduling tool.                                                    this recommendation.




                                                                                                                                 45
Audit of the FEC’s Office of Human Resources                                                                OIG-12-05



          Summary of Audit Findings and Recommendations and Management’s
                                      Response
            Finding              Recommendation                  Management Response                    OIG Comment
    III.A. HR On            18. Management should           Partially agree with                The OIG agrees with
    Demand Process is       ensure OHR and ITD              recommendation: “Management         management that the Remedy
    Ineffective             continue to work together to    agrees that OHR staff should        system will automate the
                            ensure that “Remedy” is         work with OCIO to implement         tracking and monitoring of
                            properly implemented, tested,   technological solutions at OHR.     employee inquiries and should
                            and customized to fit the       Even before receiving results of    improve OHR response time to
                            needs of the HR on Demand       the OIG’s customer survey of        employee inquiries. Once the
                            process. The Remedy             OHR, Management was aware           Remedy system is fully
                            solution should be              that a system is required for       implemented, we look forward
                            implemented by September        tracking and providing visibility   to reviewing to ensure that the
                            2013.                           for improving OHR customer          system is operating effectively
                                                            service. In 2012 the HR Director    and has improved OHR
                                                            met with the IT Helpdesk            responsiveness to employee
                                                            Manager and requested to create     requests.
                                                            a customer request tracking
                                                            system similar to the Remedy
                                                            system used by the IT Helpdesk.
                                                            The Remedy system provides
                                                            visibility and audit trail for
                                                            handling customers’ requests by
                                                            the IT Helpdesk. At that time the
                                                            system was not available for
                                                            OHR, therefore the HR on
                                                            Demand was resurrected as a
                                                            temporary band-aid while the HR
                                                            Director explored other means.
                                                            When the Remedy system became
                                                            available, Management took
                                                            immediate remedial action and
                                                            developed the system for tracking
                                                            customers’ requests. OHR staff is
                                                            being trained and the system will
                                                            be fully functional by the end of
                                                            July. The effectiveness of the
                                                            Remedy system and the provided
                                                            customer service training to the
                                                            HR staff will be re-evaluated in
                                                            September 2013.”




                                                                                                                                  46
Audit of the FEC’s Office of Human Resources                                                                    OIG-12-05



          Summary of Audit Findings and Recommendations and Management’s
                                      Response
          Finding                Recommendation                    Management Response                       OIG Comment
                            19. Once the Remedy               Agree with recommendation:            The OIG agrees that corrective
                            customer request tracking         “The HR Director has not been         actions in progress and planned
                            system is implemented, OHR        consistently approving personnel      by management should address
                            Management should                 actions late. The OHR staff, in       this recommendation. OIG
                            determine the most effective      an attempt to be customer service     looks forward to reviewing
                            way to use the automated          oriented, was processing              once fully implemented to
                            system to improve the HR On       personnel action prior to the         ensure this recommendation has
                            Demand process and leverage       action being circulated for review    in fact been fully addressed.
                            the new system to streamline      and approval, based on
                            other related processes and       customers’ desired and proposed
                            procedures. In addition, this     dates. When the HR Director
                            new process along with other      became aware of this situation
                            related processes should be       she immediately instituted the
                            formally documented in a          following corrective actions; 1)
                            policy and/or standard            mandated the use of the
                            operating procedures (SOP).       government-wide “Guide to
                            The policies/SOPs should          Processing Personnel Actions”
                            clearly document each OHR         instead of HR staff relying on
                            members’ role and                 memory; 2) updated the OHR
                            responsibilities, as well as      Standard Operating Procedures
                            details about the technical and   for “Setting Effective Dates;” 3)
                            operational components of the     required staff to circulate the SF-
                            processes.                        52 by “walking it around” to
                                                              ensure that it is reviewed and
                                                              signed within a day by the
                                                              appropriate officials; and 4) will
                                                              use the FHR system once
                                                              implemented to process personnel
                                                              actions so that the requesting
                                                              offices, not OHR, are initiating
                                                              their own SF-52s instead of OHR
                                                              preparing them based on the
                                                              requesting office’s email
                                                              requests.”

                            20. Management should             Agree with recommendation             The OIG looks forward to
                            ensure the entire OHR staff is                                          reviewing corrective actions
                            adequately trained on how to                                            planned by management to
                            use the new Remedy customer                                             ensure that it fully addresses
                            request tracking system.                                                this recommendation.

    III.B. Non-             21. The recruitment and           Agree with recommendation             The OIG looks forward to
    compliance with         selection checklist should be                                           reviewing corrective actions
    FEC’s                   completed by the HR                                                     planned by management to
    Recruitment/Selection   Specialist as each step in the                                          ensure that it fully addresses
    Process                 process is completed, for each                                          this recommendation
                            position filled. The
                            completed recruitment and
                            selection checklist should be
                            maintained in the related VA
                            file.




                                                                                                                                      47
Audit of the FEC’s Office of Human Resources                                                               OIG-12-05



          Summary of Audit Findings and Recommendations and Management’s
                                      Response
          Finding                 Recommendation                  Management Response                   OIG Comment
                            22. The Supervisory HR            Agree with recommendation        The OIG looks forward to
                            Specialist (HR Supervisor)                                         reviewing corrective actions
                            responsible for the                                                planned by management to
                            recruitment and selection                                          ensure that it fully addresses
                            process should be required to                                      this recommendation.
                            review each VA file to ensure
                            the proper documentation is
                            included in the file and that
                            every step on the recruitment
                            and selection checklist has
                            been completed. Once
                            reviewed, the HR Senior
                            Specialist should sign-off on
                            the checklist indicating that
                            the VA file is complete and
                            that the recruitment and
                            selection policy and
                            procedures was adhered to.
                            23. OHR should conduct            Agree with recommendation:       The OIG looks forward to
                            adequate oversight for all        “OHR should and will conduct     reviewing corrective actions
                            OGC positions and ensure all      adequate oversight for all FEC   planned by management to
                            documentation is completed        positions to ensure completed    ensure that it fully addresses
                            and included in applicable        documentation”                   this recommendation.
                            files.
                            24. Management should             Agree with recommendation        The OIG looks forward to
                            implement Office of                                                reviewing corrective actions
                            Personnel Management                                               planned by management to
                            (OPM) guidance which states                                        ensure that it fully addresses
                            “…develop and use a ‘Hiring                                        this recommendation.
                            Contract’ between the hiring
                            manager and the Human
                            Resources Office that spells
                            out each party's responsibility
                            for filling the job...” The
                            recruitment and selection
                            checklist included in the OHR
                            SOP for recruitment could be
                            utilized as the hiring contract
                            and this checklist should be
                            reviewed with the hiring
                            official at the beginning and
                            throughout the recruitment
                            and hiring process to discuss
                            timelines and expectations.




                                                                                                                                48
Audit of the FEC’s Office of Human Resources                                                                   OIG-12-05



          Summary of Audit Findings and Recommendations and Management’s
                                      Response
            Finding               Recommendation                    Management Response                     OIG Comment
    III.C. Outdated         25. OHR should periodically        Agree with recommendation:          The OIG notes that one third of
    Global Personnel        (at least annually) review all     “The OIG statement is partially     the FEC employees are not part
    Related                 HR- related policies and           correct. Two thirds of the FEC      of the bargaining unit and thus
    Policies/Directives     procedures for the agency and      employees are bargaining unit       policies that impact any and all
                            for the OHR to ensure policies     employees who follow the Labor      agency employees should be up
                            and procedures are accurate        Management Agreement. The           to date. The OIG looks forward
                            and relevant, and update as        policies for bargaining unit        to reviewing corrective actions
                            needed.                            employees are all updated,          planned by management to
                                                               negotiated, and approved under      ensure that it fully addresses
                                                               the LMA as of May 12, 2013. All     this recommendation.
                                                               the managers were trained by
                                                               OHR on the contents of the LMA
                                                               and the approved agreement has
                                                               been provided to all staff and is
                                                               posted on the FECNet. OHR is
                                                               addressing final stakeholder
                                                               comments in several policies.”
                            26. All policies and               Agree with recommendation           The OIG looks forward to
                            procedures should be posted                                            reviewing corrective actions
                            in a central location accessible                                       planned by management to
                            to all FEC staff (ex: FECNet,                                          ensure that it fully addresses
                            the FEC computer server). In                                           this recommendation.
                            addition, when policies and
                            procedures are updated they
                            should be reposted and an
                            email sent to all FEC staff on
                            the changes/updates.




                                                                                                                                      49
       Final Report for the Audit of the Federal Election Commission's Office
       of Human Resources
                             APPENDIX A

         FEDERAL ELECTION COMMISSION

         WASH I NGTON ,     Q,C    20463




MEMORANDUM

                                                                   July 9, 2013



TO:               Lynne McFarland
                  Inspector General

THROUGH:          Alec palmerJO\-~
                  Staff Director - ~

FROM:             Mitra K. Nejad-Guerin    C)/1 ,_   A   _______




                  Deputy Staff Director f~   pfa~;~nt and Administration
                  Judy McLaughlin      Uw~
                  Director of the Offic~;i ~m~~ Re;ou~ces

SUBJECT:          Management Response to the Office of the Inspector General's Draft Report on the
                  Audit of the Office of the Human Resources (0IG-12-05)

Management hereby responds to the Office of the Inspector General's (OIG) Draft Report on the Audit
ofthe Office of Human Resources (0IG-12-05) received on June 25, 2013.

Management agrees with most of the OIG recommendations; however, Management requests that
certain paragraphs in the report be modified to fairly identify the issues, as follows:

1.     Executive Summary of the draft report, page 3, , fourth paragraph the OIG stated that "Based on
      this audit, the OIG concludes the OHR has significant leadership and operational weaknesses that
      are impacting the office's ability to provide effective customer service and fulfill the day-to-day
      responsibilities ofthe office. Specifically, the agency hired a new OHR Director in April 2010, who
      lacked the necessary HR operations and leadership background that was necessary to address the
      many challenges facing the OHR at that time, and going forward. To compound this issue, the OHR
      Director's supervisor at the time, failed to promptly provide the OHR Director the training necessary
      to address these gaps."

Management Response: We disagree with this statement and would like it removed or revised.
Previous to her current appointment as the FEe's HR Director, the incumbent was acting EEO Director
for the Commission for over a year. In this capacity the incumbent received a performance assessment
from the former Staff Director, for whom she was a direct report, as "Exceed Expectations". Specifically,
her supervisor at that time wrote that she "has done an admirable job as the Acting Director of the
OEEO ." In fact, she was doing such a good job that her three months detail got extended many times.

When the incumbent moved to the HR Director position, there were no gaps identified in her leadership
capability of that time. In addition, since the HR Office was in a state of array (half of the OHR staff

                                                                                                          1
resigned at once), most of the OHR remaining FY 2010 budget went to contract support to support the
office .. Moreover in this severely strained situation, it was wise for the leadership to remain at the
office at all times. It is also important to note that with the first opportunity, after stability was
established, the HR Director received one-on-one coaching and intense management training.

In terms of having experience with HR operations, the incumbent was selected for the position as the
best qualified because of her extensive experience (over 20 years) in HR operational functions.

Due to these facts, management requests that the OIG remove the above paragraph from the Executive
Summary and revise the language of section LA. "Ineffective Leadership" on page 14 and 15.



2.    Page 4 of the Executive Summary, paragraph 2, the OIG stated "Subsequent to the completion of
     the gap analysis, the OHR failed to develop these training plans.

Management Response: Training plans were developed and executed in FY 2011 and FY 2012 for the
staff in OHR. Copies of the plans and implementation were provided to the OIG during the audit.

3.    Page 5 of the Executive Summary, Paragraph 2, the OIG stated liThe OIG further concludes that the
     extent of the problems which currently exist in the OHR require significant leadership and
     operational changes . Related to this issue is the OIG's recommendation #3 .

Management Response: The FEe's Office of Human Resources has a significantly long history of
instability, which has created substantial staff turn-over and morale issues. These deep rooted cultural
problems cannot and will not be healed overnight. Any drastic changes to the current leadership will
rekindle even stronger the old fractures and will ultimately damage the Commission . The Management
would like to avoid the FY 2010 history repeating itself. In this sequestered budgetary environment, it is
unlikely that a seasoned Federal official trained specifically in HR matters will leave its agency to help
the FEC, at no cost to the Commission. However, the management was successful in creating a win-win
situation by bringing a SES Candidate (at no cost to the Commission) to help with the issues as a part of
his developmental assignments. In addition, the Deputy Staff Director for Management and
Administration assumed the managerial role of the OHR for the months of May and June and conducted
team meetings on a weekly basis in order to strengthen team morale, staff collaboration, and improving
customer service. The effectiveness of these recent initiatives will be re-evaluated in September 2013 .



4.   Page 13, last paragraph, "OIG concludes that despite efforts by OHR management during the past
     18 months, customer service has not improved.

Management Response: Even before receiving results of the OIG's customer survey of the OHR,
management was aware that a system is required for tracking and providing visibility for improving OHR
customer service. In 2012, the HR Director met with the Information Technology (IT) Help Desk
iVlanager and requested to create a customer requests tracking system similar to the Remedy system
used by the IT Help Desk . The Remedy system provides visibility and an audit trail for handling
customers' requests by HR Specialists. At that time, the Remedy system was not available for OHR,
therefore the HR on Demand was resurrected as a temporary band-aid while the HR Director explored
other means. When the Remedy system became available, management took immediate remedial
action and developed the system for tracking customers' requests. OHR staff is being trained and the

                                                                                                          2
Remedy system will be fully functional by the end of July. The effectiveness of the Remedy system and
the provided customer service training to the HR staff will be re-evaluated in September 2013.

5.   OIG Recommendation #4, page 17 "OHR Management should reassess the new OHR office
     structure to determine if there is a need to adjust the functions/tasks between the two teams,
     and/or individual team members, in order to better balance the workload amongst the teams/team
     members ."

Management Response : Although management already started to reassess the existing structure, roles,
and responsibilities; it is important to note that the OHR restructuring provided a better structure than it
had before by engaging staff in the OHR office design.

The OHR engaged in several team building sessions where roles and responsibilities were repeatedly
clarified and discussed . The sessions also focused on setting priorities and improving customer service.

In addition, the two existing non-supervisory GS-14 Human Resources Specialists were ultimately
appointed permanently as supervisors, in order to provide hands-on coaching and to increase staff
accountability, These changes may not have fully remedied the old persistent problems; but it
definitely improved the situation. The successful implementation of the eOPF project, which provided
every FEC staff access to their electronic official personnel files; successful completion of the Labor
Management Agreement negotiations; development and implementation of the FEe's telework policies;
the OPM approval of a new and improved performance management system are some examples of OHR
successes in these last couple of years. We request that the OIG recognize these successes for improved
customer service, use of technology (eOPF), and updated policies (new approved LMA), while the
management agrees that OHR customer service needs additional improvements.



6.   Section III. Office Operations, Page 28, first paragraph, the OIG stated: liThe Director of HR is not
     consistently approving Request for Personnel Actions (SF-52s) in a timely manner."

Management Response: The HR Director has not been consistently approving personnel actions late .
The OHR staff, in an attempt to be customer service oriented, was processing personnel actions prior to
the action being circulated for review and approval, based on customers' desired and proposed dates.
When the HR Director became aware of this situation, she immediately instituted the following
corrective actions: 1) mandated the use of the government-wide "Guide to Processing Personnel
Actions," instead of HR staff relying on memory; 2) updated the OHR Standard Operating Procedures for
"Setting Effective Dates;" 3), required staff to circulate the SF-52 by "walking it around" to ensure that it
is reviewed and signed within a day by the appropriate officials; and 4)mandated the use of the FHR
system once implemented to process personnel actions so that the requesting offices, not OHR, are
initiating their own SF-52s, instead of OHR preparing them based on the requesting office's email
requests.



7.   Section III. C Outdated Global Personnel Related Policies/Directives, the OIG stated that_"AII of
     OHR's current policies in place have not been updated to reflect current practices."

Management Response: The OIG statement is partially correct. Two thirds of the FEC employees are
bargaining unit employees who follow the Labor Management Agreement. The policies for bargaining

                                                                                                             3
unit employees are all updated, negotiated, and approved under the LMA, as of May 12, 2013. All the
managers were trained by OHR on the contents of the LMA and the approved agreement has been
provided to all staff and is posted on the FECNet.

OHR is addressing final comments received from the stakeholders on the remaining policies before
receiving final approval.



8.   We would like to bring to the attention of the OIG additional Improvements completed since the
     start of the OIG Audit in July/August 2012.
         In addition to those improvements listed above, the following are additional recent
         improvements:
              •   Staff members at OHR are identified to keep the FECNet updated on a regular basis;
              •   IT and OHR staff are working closely together to employ FHR modules, in FY 2014. Some
                  IT security issues need to be resolved for the system's full employment;
              •   Weekly Friday team meetings with the HR Director and all staff are established . In these
                  meetings team issues and customer requests issues are discussed and resolved;
              •   Daily status meetings between the HR Director and the two supervisors are established.
                  In these short standing meetings, daily priorities are made;
              •   Additional hands-on training was provided to HR Assistants to process SF-S2s;
              •   New process was put in place (revised SOP; walking forms for signature until FHR system
                  is up and running); and
              •   We are continuing to work on automating the process with FHR.




                                                                                                          4
                         Federal Election Commission
                           Office of Inspector General




    Fraud Hotline
    202-694-1015




      or toll free at 1-800-424-9530 (press 0; then dial 1015)
      Fax us at 202-501-8134 or e-mail us at oig@fec.gov
      Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463




Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to
fraud, waste, abuse, and mismanagement of agency programs and operations. Individuals
who contact the OIG can remain anonymous. However, persons who report allegations are encouraged
to provide their contact information in the event additional questions arise as the OIG evaluates the
allegations. Allegations with limited details or merit may be held in abeyance until further specific details
are reported or obtained. Pursuant to the Inspector General Act of 1978, as amended, the Inspector
General will not disclose the identity of an individual who provides information without the consent of that
individual, unless the Inspector General determines that such disclosure is unavoidable during the course
of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                            Together we can make a difference.
